December 3, 2009

VINCENT H. DEVITO, JR
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Imprudent Purchases and Management Instruction on
         Expenses for Internal and External Events
         (Report Number FF-AR-10-025)

This report presents the results of our audit of the Postal Service’s compliance with the
Management Instruction (MI) on Expenses for Internal and External Events1 and follow
up to our audit report on Imprudent Spending Using the SmartPay® Purchase Card2
(Project Number 09BO016FF000). The objectives of our audit were to determine
whether employees complied with the management instruction for internal and external
events and to conduct follow-up testing to determine whether imprudent purchases
were still occurring. The report is self-initiated and addresses financial risks. See
Appendix A for additional information about this audit.

Conclusion

While overall spending using the SmartPay2® Purchase card3 has declined in the past
year, our audit disclosed non-compliance with the policy on meals and events and
continued imprudent purchases during this time of economic uncertainty for the Postal
Service. Based on our review of judgmentally selected transactions, we identified over
$792,000 in purchases that were not made in accordance with Postal Service policy and
over $54,000 in imprudent purchases.

Compliance with Internal and External Events Guidance Needs Improvement

Based on our examination of purchases for meals and events,4 we determined that
employees spent $792,022 on meals and internal and external events without
justification for food purchases, purchased alcohol without officer approval, and
exceeded the dollar limit for meals set forth in the MI. For example, we found a meeting


1
  MI FM-640-2008-1, Expenses for Internal and External Events, September 10, 2008.
2
  Fiscal Year 2009 Imprudent Spending Using the SmartPay® Purchase Card (Report Number FF-MA-09-002, dated
January 20, 2009).
3
  Management replaced SmartPay cards with SmartPay2 cards in November 2008.
4
  Transactions obtained from the Accounts Payable Excellence (APEX) system for the time period October 2008
through February 2009.
Imprudent Purchases and Management Instruction on                                                            FF-AR-10-025
 Expenses for Internal and External Events


where catering charges totaled $355,451 without a documented business justification
for including the meals, and instances of meals exceeding $90 per person.5

The MI for meals and events requires employees to justify the business reason for
purchasing food and meals, restricts certain purchases (including alcohol), and
establishes dollar limits for meal purchases. It also states that managers must fully
consider available budget and both the benefits and costs before authorizing and paying
for expenses associated with hosting internal/external events. In addition, managers
must consider whether the appearance of a proposed event will raise questions as to its
business value and whether it can be readily justified to the public or oversight
constituencies.

In the purchase documentation we reviewed, approving officials did not properly review
eBuy requests to ensure that purchases were justified and contained all necessary
information, including business justification for meals. While the eBuy system contains
a field for purchase justification, the justification for meals was frequently missing.
Further, the system did not have a unique field to document a justification for providing
working meals.6 See Appendix B for our detailed analysis.

We recommend the vice president, Controller, in coordination with the vice president,
Supply Management:

1. Develop and implement further system and process improvements to strengthen and
   better enforce the requirement for justification of business meals.

Management’s Comments

Management generally agreed with the finding and recommendation and stated they will
review ways to improve the eBuy system and requisition process. Management is
implementing the eBuy2 system and will provide the U.S. Postal Service Office of
Inspector General (OIG) with a written assessment of system improvements or
alternative solutions to better enforce the requirement for justification of business meals
by January 31, 2010. Management further stated that organizational changes have
been made recently to improve the efficiency of local purchasing activities, and the
Postal Service will be opening two new Purchasing Shared Services Centers in April
2010. Management envisions that these centers will improve oversight, advise field
managers on controlling expenditures, and provide opportunities to improve extended
supply chains. See Appendix C for management’s comments, in their entirety.

Imprudent Spending Continues

Although we noted that, overall, use of the SmartPay2 Purchase card has declined,
management could make further reductions if they eliminated non-essential purchases.
5
    The MI allows $50 per person for dinner.
6
    Meals provided as part of a working meeting to allow continuance of official business and/or training.




                                                             2
Imprudent Purchases and Management Instruction on                                               FF-AR-10-025
 Expenses for Internal and External Events


Purchases of the type noted in our prior report7 were not as prevalent in our testing
during this audit. However, our testing of transactions for the timeframe of October
2008 through June 2009 showed that imprudent spending continues to occur, including
continued purchases of gift cards from unauthorized vendors and expensive items
purchased as employee recognition awards and retirement gifts. We also continue to
see purchases for ancillary items associated with conferences (e.g., lodging, table
linens, and flowers) that we consider excessive during this challenging economic time.
The examples included in this report totaled $54,085.

Such purchases are in direct conflict with the Postal Service’s objective of driving down
costs in all operations and processes.8 The PMG expressed concern regarding
imprudent purchases in a memorandum on reducing costs he sent to all officers. In this
memorandum, dated December 1, 2008, the PMG referenced our prior audit, noting that
the purchases we identified – although within the authority of the approving officials –
were imprudent and unnecessary during a time of severe economic uncertainty.
Further, he provided officers additional guidance on the importance of using their
approval authority to consider the amount, type, and purpose of the purchase, as well
as its business value and potential public perception of the purchase. We noted that 12
events (totaling $323,334) were cancelled due to such financial concerns. Area and
district personnel who decided to cancel the events stated they thought cancelling
would be in the best interest of the Postal Service even though doing so would result in
the cancellation fees.9

We recognize that as an ongoing business enterprise, the Postal Service must be able
to host events and meetings and has taken steps to improve the monitoring of expenses
for internal and external events. However, further effort is needed to promote
compliance with established policies, curtail costs, and show the Postal Service as a
good steward of its finances to the public. As we reported in a previous audit report,10 a
method to isolate and track these types of expenditures does not exist and we
recommended that a unique general ledger account to isolate expenses associated with
internal and external events (meals, refreshments, employee recognition gifts, gift
cards, etc.) be implemented. The Postal Service is currently working to implement a
change that will allow for better monitoring and transparency for these transactions but
has encountered some difficulties. In light of this, until such time as a process is
implemented, we believe additional clarification should be made to the MI to establish
upper limits for internal and external event-related costs. See Appendix B for our
detailed analysis.



7
  We noted purchases of items such as Global Positioning Systems, espresso machines, and designer watches
(Fiscal Year 2009 Imprudent Spending Using the SmartPay® Purchase Card (Report Number FF-MA-09-002, dated
January 20, 2009)).
8
  Postal Bulletin 22238, FY 2008 Closing Guidance: Message from the Controller, July 31, 2008.
9
  We did not take exception to these cancellation fees.
10
   Fiscal Year 2009 Postal Service Management Instruction – Expenses for Internal and External Events (Report
Number FT-MA-09-001, dated January 13, 2009).




                                                      3
Imprudent Purchases and Management Instruction on                             FF-AR-10-025
 Expenses for Internal and External Events


We recommend the vice president, Controller:

2. Implement a spending limit for internal and external events and recognition awards,
   including all ancillary items associated with the events.

Management’s Comments

Management generally agreed with the finding and recommendation. Although they
stated the current MI is an effective policy, and including additional spending limits in
the MI and reissuing the policy would be counter productive, they agreed further policy
enforcement is necessary. The vice president, Controller’s office will contact the area
finance managers where infractions to the policy were identified. Also, a presentation
was provided to area accounting managers on October 14, 2009, that discussed the
policy. Additionally, a memorandum will be sent to all officers emphasizing the internal
and external event policy by December 31, 2009. This memorandum will be distributed
to all purchase cardholders for their information and to share with their management
officials.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, director, Field
Financial Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

cc: Joseph Corbett
    Susan M. Brownell
    Stephen J. Nickerson
    Bill Harris




                                                    4
Imprudent Purchases and Management Instruction on                                            FF-AR-10-025
 Expenses for Internal and External Events


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In November 1991, the Postal Service joined the government-wide Commercial Credit
Card Program administered by the General Services Administration (GSA) called
SmartPay. The program within the Postal Service is known as the SmartPay Purchase
Card Program, which Supply Management and Finance co-sponsor. In November
2008, the Postal Service began transitioning to SmartPay2 and replaced all purchase
cards. The Postal Service pays no administrative fees for the card services and earns
cash refunds based on the aggregate volume of its transactions. There are no interest
penalties, and the Postal Service pays all credit card charges with a single monthly
payment.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow purchasing
guidelines for approved expenditures set by the Postal Service in Handbook AS-709,11
and various manuals, handbooks, management instructions, and locally issued
guidance. This guidance requires cardholders to maintain documentation, including
approved purchasing requests, sales and credit drafts and receipts, and delivery
documentation. In addition, guidance issued January 4, 2008, requires cardholders to
maintain documentation supporting the timely review of monthly statements by
cardholders and approving officials.12

MI FM-640-2008-1 provides policies and procedures for purchases and payment of
official Postal Service business internal and external event-related expenses. Internal
events include on-site and off-site official and non-routine meetings, conferences,
training sessions, town hall meetings, briefings or information-sharing events, and
Postal Service employee recognition and appreciation events and gatherings. Internal
events are attended predominately by Postal Service employees, but may include
individuals representing outside organizations, contractors, and, in limited
circumstances, employee’s immediate family members.

External events include on-site and off-site official business events that benefit the
Postal Service and while Postal Service employees (and contractors) may be required
to participate as part of their official duties, they are predominately intended for and
attended by customers or other external stakeholders. These stakeholders include


11
  Credit Card Policies and Procedures for Local Buying, September 2008.
12
  Officer Memorandum of Policy GSA Smart Pay Purchase Card Reconciliation Process Time Change,
January 4, 2008.




                                                    5
Imprudent Purchases and Management Instruction on                                                      FF-AR-10-025
 Expenses for Internal and External Events


representatives of industry or special interest groups, foreign postal administrations and
visitors, suppliers, and others with whom the Postal Service conducts official business.

Purchase and payment for most internal events is done under local buying policies and
procedures. When employees cannot use a government-issued purchase credit card
(SmartPay2), they use another local buying method. When internal event expenses will
exceed the local buying threshold, requests must be coordinated with and processed by
Supply Management’s Travel and Conference Service Category Team.

In our previous report, Fiscal Year 2009 Imprudent Spending Using the SmartPay®
Purchase Card,13 we reported that employees made, and were continuing to make,
imprudent and unnecessary purchases during a time of severe economic uncertainty in
the Postal Service. While such purchases were generally not in direct violation of
Postal Service policies, they conflicted with the Postal Service’s objective of driving
down costs in all operations and processes. Moreover, the public’s view of such
imprudent purchases could have a detrimental effect on the Postal Service’s public
image due to the perception that public funds are being used to purchase expensive
items.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether employees complied with the
management instruction for internal and external events and to conduct follow-up
testing to determine whether imprudent purchases were still occurring.

To accomplish our objectives, we issued letters to employees to obtain supporting
documentation for judgmentally selected SmartPay, SmartPay2, and Accounts Payable
Excellence (APEX) purchase transactions. We selected APEX transactions for
meetings and conferences greater than $10,000 for the time period of October 2008
through February 2009.14 The total amount for APEX transactions we reviewed during
this period was $1.7 million. Included in this amount were charges for 12 events
(totaling $323,334) that were actually cancellation fees for events in which area and
district personnel determined that cancelling would be in the best interest of the Postal
Service, even with the resulting cancellation fees.15

We also selected 214 SmartPay and SmartPay2 transactions (totaling $777,243) for the
period October 2008 through June 2009.16 We selected the purchase credit card
transactions based on standard industry codes and dollar amount of transactions. We
used Postal Service instructions, manuals, policies, and procedures as criteria to
evaluate internal controls and data reliability. We interviewed supervisors and
employees as needed.

13
   Report Number FF-MA-09-002, dated January 20, 2009.
14
   These dates reflect when the invoices were paid rather than when the events occurred.
15
   We did not evaluate the reasonableness of the cancellation fees paid.
16
   There were a total of 531,463 transactions processed during the specified period, with a value of $177,482,564.




                                                          6
    Imprudent Purchases and Management Instruction on                                                FF-AR-10-025
     Expenses for Internal and External Events



    We conducted this performance audit from June through December 2009 in accordance
    with generally accepted government auditing standards and included such tests of
    internal controls as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objectives. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objectives. We assessed the reliability
    of computerized data by verifying the computer records to source documents.
    We discussed our observations and conclusions with management officials on
    September 16, 2009, and included their comments where appropriate.

    PRIOR AUDIT COVERAGE

    We conducted 14 audits of SmartPay purchases in the past 3 years. Management
    agreed with our findings and recommendations and implemented corrective action. The
    table below contains the details of these 14 reports.

                                      Final                      Non
                       Report        Report     Monetary       Monetary
   Report Title        Number         Date       Impact         Impact                      Report Results
SmartPay             FT-AR-07-014   9/29/2007    $127,393       $181,908      Internal controls over the SmartPay
Purchase Card Use                                                             Purchase Card use of Postal Service
by Postal Service                                                             officers were generally adequate, including
Officers                                                                      authorization and subsequent review.
                                                                              However, the Postal Service did not always
                                                                              maintain adequate purchase documentation
                                                                              or use the purchase card for authorized
                                                                              purposes. The Postal Service could
                                                                              strengthen existing SmartPay Purchase
                                                                              Card policies to further enhance controls
                                                                              over the purchase card program.
National Review of   CA-AR-08-002   11/8/2007    $244,626       $177,183      Our audit disclosed that 25 of 42
SmartPay                                                                      cardholders had 37 transactions (totaling
Purchase Card                                                                 $45,474) which did not have approved
Transactions                                                                  purchase requests or proper written
                                                                              justifications. Four cardholders improperly
                                                                              split purchases to avoid the $10,000 per
                                                                              transaction spending limit.
Fiscal Year 2007     FF-AR-08-072   1/11/2008    $63,511           N/A        SmartPay Purchase Card cardholders had
Southwest Area                                                                105 transactions (totaling $95,589) that
SmartPay                                                                      either were not supported with
Purchase Card                                                                 documentation or were for unauthorized
Program                                                                       items. Cardholders did not always enter gift
                                                                              cards into the eAwards system.
Fiscal Year 2007     FF-AR-08-094   2/4/2008    $1.2 million   $2.6 million   We identified various internal control and
SmartPay                                                                      compliance issues in all 17 judgmentally
Purchase Card                                                                 selected sites, including one policy issue
Program                                                                       related to monthly reconciliations.
Fiscal Year 2008     FF-AR-08-270   8/22/2008       N/A            N/A        Generally, cardholders supported Capital
Capital Metro Area                                                            Metro Area SmartPay Purchase Card
SmartPay                                                                      Program purchases and complied with
Purchase Card                                                                 Postal Service policies and procedures.
Program                                                                       However, the credit card reconciliation
                                                                              process needed improvement.




                                                          7
    Imprudent Purchases and Management Instruction on                                           FF-AR-10-025
     Expenses for Internal and External Events


                                      Final                    Non
                       Report        Report      Monetary    Monetary
   Report Title        Number         Date        Impact      Impact                  Report Results
Fiscal Year 2008     FF-AR-08-279    9/8/2008      N/A         N/A      We did not identify any control and
Southeast Area                                                          compliance issues with the Southeast
SmartPay                                                                Area’s SmartPay Purchase Card Program.
Purchase Card
Program
Fiscal Year 2008     FF-AR-08-281    9/12/08     $20,215      $3,360    Cardholders did not always document the
Pacific Area                                                            business necessity for holding separate
SmartPay                                                                working meetings after normal business
Purchase Card                                                           hours; seek or receive tax exemptions on
Program                                                                 purchases; or enter non-cash award
                                                                        transactions into the eAwards system. In
                                                                        addition, cardholders and approving officials
                                                                        did not follow monthly reconciliation
                                                                        procedures.
Fiscal Year 2008     FF-AR-08-286    9/24/08     $57,712       N/A      Cardholders did not always document the
Western Area                                                            business necessity for working meals or
SmartPay                                                                purchase bottled water from the contracted
Purchase Card                                                           vendor.
Program
Fiscal Year 2008     FF-AR-08-287    9/25/08     $38,412     $37,808    Purchases were not always supported with
Great Lakes Area                                                        documentation, monthly reconciliation
SmartPay                                                                procedures were not always followed, and
Purchase Card                                                           SmartPay Credit Card Program Cardholder
Program                                                                 Accountability Acknowledgment forms were
                                                                        not always complete.
Fiscal Year 2008     FF-AR-09-002    10/21/08    $26,745      $9,826    Cardholders made purchases from
Eastern Area                                                            unauthorized vendors and did not always
SmartPay                                                                document the business necessity for
Purchase Card                                                           working meals. eBuy authority was not
Program                                                                 properly delegated and purchases were not
                                                                        always supported by receipts. Cardholders
                                                                        and approving officials did not follow
                                                                        monthly reconciliation procedures.
Fiscal Year 2008     FF-AR-09-001   10/22/2008   $36,263     $13,481    Cardholders made purchases without
Northeast Area                                                          documenting the business necessity for
SmartPay                                                                working meals, and cardholders and
Purchase Card                                                           approving officials did not follow monthly
Program                                                                 reconciliation procedures.
Fiscal Year 2008     FF-AR-09-028    11/28/08    $63,000     $34,451    Cardholders did not always document the
New York Metro                                                          business need for working meals, follow
Area SmartPay                                                           proper contracting rules, and verify charges
Purchase Card                                                           during reconciliation.
Program
Fiscal Year 2009     FT-MA-09-001   1/13/2009      N/A         N/A      We found the draft MI did not address three
Postal Service                                                          key areas: use of personal credit cards,
Management                                                              consistent and detailed definitions, and
Instruction –                                                           transparency among all Postal Service
Expenses for                                                            managers. During our review, we
Internal and                                                            suggested various changes based on best
External Events                                                         practices and our observations.
Fiscal Year 2009     FF-MA-09-002   1/20/2009      N/A         N/A      Employees have made, and are continuing
Imprudent                                                               to make, imprudent and unnecessary
Spending Using the                                                      purchases during a time of severe
SmartPay®                                                               economic uncertainty in the Postal Service.
Purchase Card                                                           While such purchases are generally not in
                                                                        direct violation of Postal Service policies,
                                                                        they conflict with the Postal Service’s
                                                                        objective of driving down costs in all
                                                                        operations and processes.




                                                         8
Imprudent Purchases and Management Instruction on                                                       FF-AR-10-025
 Expenses for Internal and External Events


                                 APPENDIX B: DETAILED ANALYSIS

Compliance with Internal and External Events Guidance Needs Improvement

Based on our testing of purchases for meals and events, we determined that employees
made $792,022 in purchases for meals and internal and external events without
justification for food purchases, purchased alcohol without officer approval, and
exceeded the dollar limit for meals set forth in MI FM-640-2008-1.17 Fifteen of the 40
event transactions we tested were held within 30 days of issuance of the new MI. We
considered the $792,022 unrecoverable questioned costs.18

The MI for meals and events requires employees justify the business reason for
purchasing food and meals, restricts certain purchases including alcohol, and
establishes dollar limits for meal purchases. It also states that managers must fully
consider available budget and both the benefits and costs before authorizing and paying
for expenses associated with hosting internal- and external-related events as covered
by this MI. In addition, managers must consider whether the appearance of a proposed
event will raise questions as to its business value and whether it can be readily justified
to the public or oversight constituencies. Examples of the non compliance with the MI
included:

        No business justification was provided for $355,451 of food19 provided at a
         September 200820 national sales educational conference attended by over 600
         employees. We requested supporting documentation for six of the 65 banquet
         charges incurred during the conference. We noted that beer and wine were
         served on one occasion, a bartender charge of $500 was included on one
         occasion, and one dinner for 650 guests totaled $62,714, which is $96 per
         guest.21 The supporting eBuy requisition and other documentation did provide
         the business reason for the meal expenditures as required. Postal Service
         representatives we contacted believed the meal costs were less expensive than
         paying each attendee per diem; however, our example shows this was not the
         case.

        A postmaster installation celebration and reception held in October 2008 included
         unallowable food purchases totaling over $17,000. The menu included crab
         cakes, beef wellington, shrimp, and scallops. Items such as these are not within


17
   The requirements for justifying the purchase of meals and officer approval for the purchase of alcohol were policies
in the previous MI FM-640-2001-4, Payment for Meals and Refreshments, September 24, 2001. A subsequent MI
FM-640-2008-1, dated September 10, 2008, established meal limits.
18
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
19
   A hotel representative we spoke to stated it is common practice for hotels to incorporate charges for meeting
and/or conference room space into the charges for meals and beverages they provide.
20
   Management issued the revised MI September 10, 2008. The conference started September 21, 2008.
21
   The allowable dinner amount per the MI is $50 per person. We reviewed a sample of per diem expenses claimed
by 11 attendees, and they all deducted the meals provided from the per diem amount claimed.




                                                           9
Imprudent Purchases and Management Instruction on                                                     FF-AR-10-025
 Expenses for Internal and External Events


         the guidelines of the MI for postmaster installation ceremonies, which states food
         purchases are limited to light snacks.

        There were excessive per person dinner charges for 20 employees attending a
         year-end leadership meeting in September 2008.22 This 2-day meeting cost the
         Postal Service $27,567. Specifically, the per dinner cost for 20 employees was
         $43 over the allowable limit. Overall, the total dinner cost of $2,267 exceeded
         the allowed amount by $860. Additionally, lodging at the conference facility was
         included for these 20 district office employees even though their official duty
         station was within nine miles of the conference facility. According to Postal
         Service policy, local travel is defined as travel to a location within a 50-mile
         radius of your permanent duty station in which overnight lodging is not needed.23
         We believe paying lodging for personnel when their office is so close to the
         conference facility could raise questions in the public’s mind as to the business
         need.

        There were three instances24 of beer and wine purchased without the required
         officer approval,25 totaling $1,459. One meeting was held on Postal Service
         property after normal working hours. While there is no specific criterion that
         addresses this practice, we believe serving alcohol on Postal Service property
         would appear questionable to the public and to Postal Service employees.

        Alcohol (other than beer and wine) was purchased for a meeting held in
         September 200826 that included attendees from other countries at a cost of $202.
         The MI strictly prohibits the purchase of alcohol other than beer and wine.

        No business necessity or justification was provided for $77,757 in breakfast
         (working meals) costs at 24 internal and external events held between
         September 2008 and February 2009. The MI states that “Meals can be provided
         as part of a working meeting when they are required for the purpose of
         continuing official business and/or training. Typically, this will not include
         breakfast, and should, when practicable, be scheduled to avoid overlapping meal
         periods.”




22
   As noted, the revised MI was issued September 10, 2008. This meeting was also held on September 10, 2008.
23
   Handbook F-15, Travel and Relocation, February 2004, updated with Postal Bulletin revisions through December
20, 2007, Section 7-1.1.1.
24
   Events occurred October 6 and November 5, 2008, and February 25, 2009.
25
   The MI states that when it is reasonable and customary and participants are not on duty or not in their assigned
postal workplace during scheduled working hours, officers may authorize Postal Service funds to purchase and pay
for alcohol (beer and wine only) to be served in conjunction with officer-approved internal and external events.
26
   As noted, management issued the revised MI September 10, 2008. This meeting was held on September 18,
2008.




                                                         10
Imprudent Purchases and Management Instruction on                                                   FF-AR-10-025
 Expenses for Internal and External Events


Imprudent Spending Continues

Although we noted that, overall, spending using the SmartPay2 Purchase card has
declined, further reductions could be made if non-essential purchases were eliminated.
For example, for the period of January through September 2009, SmartPay2
transactions for three SIC codes27 related to food purchases totaled $825,996. Included
in our review were purchases for ancillary items associated with conferences (e.g.,
lodging, table linens, flowers, etc.) that we consider excessive during this challenging
economic time. Such purchases are in direct conflict with the Postal Service’s objective
of driving down costs in all operations and processes.28 Moreover, the public’s view of
such purchases could have a detrimental effect on the Postal Service’s public image.
Chart 1 illustrates the reduced amount of spending with the SmartPay2 Purchase card.




                                                       Chart 1

Our testing identified the following imprudent purchases totaling $54,085:

          Five cardholders purchased gift cards from unauthorized vendors totaling
           $31,791. All gift card amounts were $25 or more and none were entered into
           eAwards. The cardholders told us they purchased gift cards from unauthorized
           vendors at their supervisor’s request. In other instances, the gift cards were

27
     The SIC codes were Fast Food, Catering, and Restaurants.
28
     Postal Bulletin 22238, FY 2008 Closing Guidance: Message from the Controller, July 31, 2008.




                                                          11
Imprudent Purchases and Management Instruction on                                                      FF-AR-10-025
 Expenses for Internal and External Events


         needed immediately and there was not enough time to order from the authorized
         vendors. The gift cards were not entered into eAwards because personnel
         presenting the cards did not know this was a requirement, even though clear
         information regarding the policy29 is on the Postal Service’s intranet.

        Two districts purchased movie tickets for $14,150 to give as incentives to
         employees.30 The districts made these purchases after the PMG issued a memo
         directing a curtailment of spending.

        There were three meetings that included lodging costs for 45 employees whose
         duty station was less than 50 miles from the meeting location.31 The total cost for
         the stays was $6,533.

        Thirty retirement watches (costing $216 each) were purchased in one district,
         whereas other districts purchased watches for $30 per watch.

        A meeting held in September 2008 for selected postmasters included set-up fees
         and gratuities totaling $527 for a no-host bar.32 While the MI does not restrict
         such purchases, in light of the economic conditions, we do not feel this is a
         prudent expenditure as it may appear to the public to be an unnecessary
         expense.

        Three meetings33 included expenses for flowers, linens, candles, and red carpets
         totaling $4,579. Again, while the MI does not restrict these types of purchases,
         they can become excessive without written guidelines for purchasing these
         ancillary items.

To understand how the public perceives awards and recognition, we posted a blog topic
on the OIG’s web page inviting comments on the subject of employee recognition. Our
analysis of the 1,289 responses showed an equal division between those who believe
awards are a good idea and those who believe awards should not be used as a
recognition method.

        Some respondents commented that Postal Service employees are well paid and
         awards should not be necessary. Another respondent stated “save the money
         and reduce the cost. Employees should be doing their job at 125% because our
         jobs may be lost.”


29
   Memorandum of Policy ERM-12-12-06, Recognition and Awards Program, January 12, 2006.
30
   These gift cards were purchased in bulk to have on hand to provide for carpooling or for updating address records.
Only a few employees were identified as receiving these at the time of our audit, so we do not know how many
employees benefited from this purchase.
31
   These examples are in addition to the example included earlier in the report and occurred on September 7,
October 3, and October 8, 2008.
32
   Attendees paid for their beverages.
33
   The meetings were held on September 7, September 18, and September 22, 2008.




                                                         12
Imprudent Purchases and Management Instruction on                       FF-AR-10-025
 Expenses for Internal and External Events


      The opposing opinion included a comment that employees should be rewarded
       as they are in any other company. Another respondent stated that carriers
       should be rewarded for the work the carriers do just as supervisors are.




                                                13
Imprudent Purchases and Management Instruction on         FF-AR-10-025
 Expenses for Internal and External Events


                      APPENDIX C: MANAGEMENT’S COMMENTS




                                                14
Imprudent Purchases and Management Instruction on    FF-AR-10-025
 Expenses for Internal and External Events




                                                15
